No. 20-815

In the Supreme Court of the United States
IN RE: TIMOTHY KING, ET AL., PETITIONERS
v.
GRETCHEN WHITMER, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT
PROOF OF SERVICE FOR BRIEF IN OPPOSITION
The undersigned certifies that on January 14, 2021, she served the Brief in
Opposition by mailing same in an envelope bearing postage fully prepaid, plainly addressed as follows and emailing same to the email address provided:
Howard Kleinhendler
Counsel of Record for
Petitioner Timothy King
369 Lexington Avenue, 12th Floor
New York, NY 10017
howard@kleinhendler.com
(917) 793-1188

David H. Fink
Counsel of Record for
Respondent City of Detroit
Fink Bressack, PLLC
38500 Woodward Ave., Ste. 350
Bloomfield Hills, MI 48304
dfink@finkbressack.com
(248) 971-2500
/s/ Holly Gustafson
Holly Gustafson, Legal Secretary

